                     AUDIT REPORT

                     Audit of NRC’s Integrated Personnel
                               Security System

                        OIG-06-A-06     January 9, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                            January 9, 2006


MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S INTEGRATED PERSONNEL
                            SECURITY SYSTEM (OIG-06-A-06)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of
NRC’s Integrated Personnel Security System (IPSS).

The audit found that while many IPSS users report that the system is easier to
use than its predecessor systems and provides more functionality, IPSS does not
perform in accordance with its required operational capabilities. Specifically,

       ¾ The system is not fully functional.
       ¾ System data is inaccurate and missing.
       ¾ System checks to ensure data accuracy and correspondence between
         related data items are inadequate.
       ¾ Security measures are inadequate or missing.
       ¾ IPSS lacks a records disposition schedule.

This report makes 17 recommendations to strengthen the Integrated Personnel
Security System.

During an exit conference on December 22, 2005, NRC officials provided
informal comments concerning the draft audit report. These comments have
been incorporated, as appropriate, in our final report.

If you have any questions, please call Beth Serepca at 415-5911 or me at
415-5915.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Luis A. Reyes, Executive Director for Operations
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                      Audit of NRC’s Integrated Personnel Security System



EXECUTIVE SUMMARY

       BACKGROUND

       The Nuclear Regulatory Commission (NRC) Division of Facilities
       and Security (DFS) administers NRC’s facility and personnel
       security programs. Its responsibilities include making
       determinations concerning security clearances and access,
       administering the drug testing program, and physically protecting
       NRC facilities.

       In September 2002, DFS initiated a contract to develop a new
       integrated computer system to support NRC’s personnel and facility
       security programs. This new Integrated Personnel Security System
       (IPSS) was expected to replace several DFS information
       technology systems. Although IPSS was deployed in October 2003
       and DFS staff use the system daily to manage the personnel and
       facility security programs, development is still underway.

       PURPOSE

       The objective of this audit was to determine if IPSS meets its
       required operational capabilities.

       RESULTS IN BRIEF

       Although many IPSS users report that the system is easier to use
       than its predecessor systems and provides more functionality, IPSS
       does not perform in accordance with its required operational
       capabilities. Specifically,

          ¾ The system is not fully functional.
          ¾ System data is inaccurate and missing.
          ¾ System checks to ensure data accuracy and
            correspondence between related data items are inadequate.
          ¾ Security measures are inadequate or missing.
          ¾ IPSS lacks a records disposition schedule.

       IPSS Is Not Fully Functional

       Despite contract requirements for the following system
       functionalities, IPSS (1) does not provide a complete list of
       employees and contractors due for clearance or access
       reinvestigation, (2) does not provide drug testing management
       capabilities, (3) has not provided reliable report-generating
       capabilities to enable DFS staff to make quality assurance
       determinations, and (4) does not allow for the deletion of records.

                                  i
                                Audit of NRC’s Integrated Personnel Security System




These problems exist because NRC did not follow the agency
standard system development life cycle process, and the system
was deployed before development was complete. As a result, DFS
staff lack IPSS reports to ensure the effectiveness of the security
program, must maintain duplicate systems for drug testing and
badge management, cannot delete flawed records from IPSS, and
cannot determine with confidence when and at what cost the
system will be fully functional.

Data Inaccurate and Missing

Key information within the IPSS system is inaccurate, missing, or
incorrectly displayed. Of 262 files analyzed by the Office of the
Inspector General (OIG), 119 files contained one or more data
errors. These errors occurred because DFS management did not
provide users with adequate guidance and have implemented
inadequate quality control procedures. Without accurate IPSS
data, DFS cannot ensure that reinvestigations are performed in a
timely manner, as required.

IPSS Checks Are Inadequate

IPSS lacks required system checks to assure correspondence
between (1) badge type and clearance type and (2) clearance type
and investigation type. The system also lacks logical date checks
to ensure data accuracy. These issues exist because problems
with system checks were not identified during user acceptance
testing and because too few checks were included in system
requirements documents. This lack of checks could result in the
disclosure of classified information to those unauthorized for such
access; it has already resulted in the issuance of incorrect badges
to two NRC employees and in IPSS data errors.

System Security Measures Inadequate or Missing

IPSS does not follow several important security practices outlined
in its security plan, including assigning users with the least amount
of access needed to perform their job, having the capability to
identify when and how the system is used, and having users sign
an integrity statement. IPSS security measures are inadequate
because DFS managers performed ineffective oversight of system
role assignments and were unaware of the risks posed by a lack of
audit trails and an integrity statement. As a result of these
shortcomings, personnel security information is vulnerable to
misuse, both intentional and unintentional.



                           ii
                            Audit of NRC’s Integrated Personnel Security System



IPSS Lacks Records Disposition Schedule

IPSS lacks a records disposition schedule because the Office of
Information Services (OIS) failed to inform DFS of this need during
the system development process. As a result, the system is not in
compliance with Federal records retention requirements.

RECOMMENDATIONS

This report makes 17 recommendations to better insure IPSS
meets its operational requirements. A consolidated list of
recommendations appears on pages 23-24 of this report.

AGENCY COMMENTS

At an exit conference held on December 22, 2005, NRC officials
generally agreed with the report’s findings and recommendations
and provided comments concerning the report. In addition, they
stated that they were aware of problems with IPSS prior to
receiving the draft report. We modified the report as we determined
appropriate. NRC reviewed these modifications and opted not to
submit formal written comments to this final version of the report.




                          iii
                                Audit of NRC’s Integrated Personnel Security System



ABBREVIATIONS AND ACRONYMS

       DFS     Division of Facilities and Security
       IPSS    Integrated Personnel Security System
       NARA    National Archives and Records Administration
       NRC     Nuclear Regulatory Commission
       OIG     Office of the Inspector General
       OIS     Office of Information Services
       OPM     Office of Personnel Management




                            v
                   Audit of NRC’s Integrated Personnel Security System




[Page intentionally left blank.]




               v
                                                    Audit of NRC’s Integrated Personnel Security System



TABLE OF CONTENTS

     EXECUTIVE SUMMARY......................................................................i

     ABBREVIATIONS AND ACRONYMS ................................................ iv

     I. BACKGROUND................................................................................1

     II. PURPOSE .......................................................................................3

     III. FINDINGS ......................................................................................3

              A.      IPSS IS NOT FULLY FUNCTIONAL .........................................4

              B.      DATA INACCURATE AND MISSING ..........................................8

              C.      IPSS CHECKS ARE INADEQUATE ........................................13

              D.      SYSTEM SECURITY MEASURES INADEQUATE OR MISSING .....16

              E.      IPSS LACKS RECORDS DISPOSITION SCHEDULE .................20

              F.      SIGNIFICANT ISSUES REMAIN..............................................22

     IV. CONSOLIDATED LIST OF RECOMMENDATIONS ....................23

     V. AGENCY COMMENTS .................................................................25

     APPENDICES

              A. SCOPE AND METHODOLOGY .........................................27

              B. DETAILED IPSS DESCRIPTION .......................................29




                                                  vi
                Audit of NRC’s Integrated Personnel Security System




[Page intentionally left blank.]




              vii
                                                           Audit of NRC’s Integrated Personnel Security System



I. BACKGROUND

                  DFS administers NRC’s facility and personnel security programs.
                  Its responsibilities include:

                  •    Making initial and continuing eligibility determinations
                       concerning security clearances and access, and ensuring that
                       all employees have security clearances in accordance with
                       Atomic Energy Act requirements. 1

                  •    Administering NRC’s drug testing program, which tests
                       designated NRC employees and applicants for the presence of
                       illegal drugs.

                  •    Physically protecting NRC facilities through the use of badge
                       access and other systems.

                  In September 2002, DFS contracted with PEC Solutions, Inc., to
                  develop a new integrated computer system to support NRC’s
                  personnel and facility security programs. This new system, IPSS,
                  was expected to replace the prior personnel security system and
                  five other DFS security systems. One of the goals for IPSS was to
                  integrate relevant security functions performed by these systems,
                  such as badge management, classified visit tracking, personnel
                  security tracking, and drug testing management. The integrated
                  system would allow personnel security information to be entered
                  once and then be available for each of these functions to draw
                  from. (See Appendix B for more information on IPSS.) IPSS was
                  to be Web-enabled and allow users access through the NRC
                  Intranet. The contract anticipated system implementation by June
                  2003 at a total contract cost of $386,850.




1
  Pursuant to the Atomic Energy Act of 1954, as amended, all NRC employees must have a security
clearance; under NRC’s system, employees receive either an L clearance, which equates to a Confidential
or Secret clearance; a Q clearance, which equates to a Top Secret clearance; or an L(H) designation for
employees who hold high public trust positions. In addition, NRC requires contractors to have (1) a security
clearance to work with classified information or in a position of high public trust, (2) IT access to work with
NRC sensitive IT systems and information, or (3) building access to be permitted continuous unescorted
access within headquarters or regional office facilities (but not access to sensitive IT systems or
information).
                                                       1
                                                        Audit of NRC’s Integrated Personnel Security System



                   Although IPSS was deployed on October 17, 2003, 2 and DFS staff
                   use the system daily to manage the personnel and facility security
                   programs, work to develop IPSS to meet initial contract
                   requirements continues and the contract is in its seventh
                   modification. Contract obligations thus far total $550,266.57 and
                   DFS officials anticipate that up to $90,000 more will be needed to
                   finish developing the system by a new target date of December
                   2006.

                   IPSS has 78 authorized users. See table 1 for a listing of users
                   and their IPSS-related duties.

Table 1
Job Title (# of Staff in Category)                      Description of IPSS Duties
Processors (3)                                          Enter personnel security tracking data (e.g.,
                                                        clearance type, dates of background investigations,
                                                        personal history information) into IPSS and perform
                                                        the bulk of IPSS data entry tasks.
Adjudicators (6)                                        Review IPSS information as part of the
                                                        clearance/access adjudication process, but rarely
                                                        enter data.
Security Guards (47)                                    Assign permanent and temporary badges to
                                                        employees, contractors, and classified visitors.

                                                        Assure that assigned badges are appropriate for the
                                                        person’s clearance or access level.
Facility Security Specialists (5)                       Run quality assurance reports on access issues.
Other Users (17)                                        Includes other DFS users, non-DFS staff who
                                                        support IPSS, and agency managers who have
                                                        been granted limited access to IPSS information due
                                                        to their job responsibilities.


                   For information security purposes, IPSS is classified as a major
                   application. This Office of Management and Budget categorization
                   means the system requires special attention to security due to the
                   risk and magnitude of the harm that would result from the loss,
                   misuse, or unauthorized access to or modification of the information
                   in the application.

                   IPSS contains records on approximately 21,500 individuals (active
                   and inactive employees, contractors, consultants, licensees, and
                   others).




2
  A DFS manager explained that for a period of time preceding this date, DFS was using both IPSS and the
predecessor personnel security systems to store personnel security data, but that DFS stopped using one of
the major predecessor systems on October 17.
                                                    2
                                         Audit of NRC’s Integrated Personnel Security System



II. PURPOSE

          The audit objective was to determine whether IPSS meets its
          required operational capabilities. Appendix A contains information
          on the audit scope and methodology.


III. FINDINGS

          Although many IPSS users report that the system is easier to use
          than its predecessor systems and provides more functionality, IPSS
          does not perform in accordance with its required operational
          capabilities. Specifically,

          A. The system is not fully functional.

          B. System data is inaccurate and missing.

          C. System checks to ensure data accuracy and correspondence
             between related data items are inadequate.

          D. Security measures are inadequate or missing.

          E. IPSS lacks a records disposition schedule.

          These problems exist because NRC did not follow the agency
          standard system development life cycle process and did not employ
          adequate quality assurance measures over the system and its data.
          As a result, some important system data is unreliable and the
          system does not fully support the agency’s personnel and facility
          security programs as originally intended.

          Given the extent of problems identified with IPSS and changes in
          Federal personnel security requirements, the agency needs to
          pursue all recommendations identified in this audit report, including
          a summary recommendation to conduct a cost-benefit analysis to
          determine the value of continuing to develop IPSS versus
          purchasing an alternative product.




                                     3
                                        Audit of NRC’s Integrated Personnel Security System




A. IPSS IS NOT FULLY FUNCTIONAL

         Despite contract requirements for the following system
         functionalities, IPSS:

             Does not provide a complete list of employees and contractors
              due for clearance or access reinvestigation.

             Does not provide drug testing management capabilities.

             Has not provided reliable report-generating capabilities to
              enable DFS staff to make quality assurance determinations.

             Does not allow for the deletion of records.

         These problems exist because the OIS project manager did not
         follow the agency standard system development life cycle process,
         and the system was deployed before development was complete.
         As a result, DFS staff lack IPSS reports to ensure the effectiveness
         of the security program, must maintain duplicate systems for drug
         testing and badge management, cannot delete flawed records from
         IPSS, and cannot determine with confidence when and at what cost
         the system will be fully functional.

         Required Functionalities

         The IPSS contract and the IPSS project plan include specific
         system functionalities required to support NRC’s personnel and
         facility security programs. These requirements include, among
         others, a system capability to (1) alert DFS staff of all individuals
         coming due for background reinvestigations; (2) allow DFS to
         create and maintain drug testing records for NRC employees,
         applicants, and selected contractors and to create and maintain a
         drug testing pool of selected individuals; (3) provide users with
         direct access to pre-defined reports to help manage the security
         program; and (4) allow the capability to delete a personnel security
         record.

         Problems With Required Functionalities

         Despite these system requirements, none of the four functionalities
         listed above exist dependably within IPSS.




                                    4
                                                       Audit of NRC’s Integrated Personnel Security System




                          List of Individuals Due for Reinvestigation

                 The IPSS Notifications Page, which is the IPSS report DFS uses to
                 determine who needs to be reinvestigated for continued security
                 clearance or access, does not identify all individuals whose data
                 indicate they are due for reinvestigation. Auditors examined the
                 IPSS records for 262 randomly selected employees and contractors
                 and identified that 14 of these individuals had data indicating they
                 were overdue for reinvestigation by up to 7 years. Yet, none of
                 these individuals appeared on the Notifications Page and none had
                 records indicating a request had been submitted by NRC to the
                 Office of Personnel Management3 to initiate a reinvestigation.

                 OIG provided this information to DFS staff, who acknowledged that
                 IPSS was not identifying reinvestigations correctly from the
                 database. Subsequently, DFS staff reviewed each of the 14 cases
                 and determined that, in fact, not all of these individuals were
                 overdue for reinvestigation. According to their assessment, one
                 was overdue, four were terminated although this was not noted in
                 IPSS, and the others were not overdue but appeared to be so
                 because their data in IPSS was in error (see finding B for
                 elaboration on IPSS data inaccuracies). A DFS manager stated
                 that staff have since corrected these particular data inaccuracies
                 within IPSS, initiated the reinvestigation process for the overdue
                 individual, and intend to pursue correction of the underlying
                 problem with the Notifications Page.

                          Drug Testing Management

                 IPSS’ drug testing management functionality is inoperable and
                 remains under development. Although this was one of the basic
                 contract requirements for IPSS, DFS staff explained that the
                 contractor has yet to implement this component. They said the
                 contractor has been working closely with DFS staff to develop the
                 component.

                          Access to Reports

                 A portion of IPSS’ pre-defined reporting capability has never
                 functioned properly, and even when the reports appear to be
                 working, DFS staff expressed a lack of confidence about their
                 accuracy. According to the contract and to the project plan, IPSS
                 was to feature more than 50 pre-defined queries and reports to


3
  Most background investigations for NRC employees are conducted by the Office of Personnel
Management (OPM). The exception is the presidentially appointed Chairman, Commissioners, and
Inspector General, whose background investigations are conducted by the Federal Bureau of Investigation.
                                                   5
                                                           Audit of NRC’s Integrated Personnel Security System



                  allow users direct and timely access to information about the
                  security program. IPSS was also supposed to provide an ad-hoc
                  reporting capability to let users design new queries and reports and
                  save them for future use. DFS staff said they need these reports to
                  perform routine quality assurance checks of the security program.
                  For example, the reports help to ensure that temporary badges
                  issued have been returned each day, clearance type matches
                  badge type, and contractors who are not permitted 24-hour access
                  to NRC facilities are not gaining access during non-business hours.

                  DFS staff said instead of using the IPSS reports, they make
                  requests of the system administrator for the reports they need.
                  They also rely on other systems, which IPSS was supposed to
                  replace, to perform the reporting tasks that IPSS was intended to
                  perform.

                            Deletion of Records

                  IPSS does not allow records to be deleted, therefore, flawed
                  records must remain in the system until a request can be made to
                  OIS database management staff to use a “back-door” approach to
                  delete records via the database server. DFS staff said that
                  although the IPSS contract and project plan state the system will
                  allow the deletion capability, a former DFS manager who no longer
                  works for NRC insisted the feature would pose a security risk and
                  consequently the feature was not pursued. OIG contends that
                  omitting this feature is problematic and there are preferable means
                  to prevent misuse.4

                  OIS Provided Insufficient Support

                  These system problems exist because OIS has not provided
                  essential and required support to DFS during the IPSS
                  development process and because DFS staff deployed the system
                  prematurely.

                  According to both methodologies NRC has used over the past 4
                  years to facilitate systems development, OIS is required to support
                  the program offices. According to an OIS manager, the focus of the
                  support has shifted from a more technical approach to more of an
                  overall project management approach, but in either case OIS is
                  required to assist offices throughout the development process.
                  According to the OIS manager, the OIS employee assigned to help



4
 One means would be to allow a single individual who is not a regular system user (such as the system
administrator or system security manager) to have this capability, and use audit trails to ensure the feature is
used appropriately.
                                                       6
                              Audit of NRC’s Integrated Personnel Security System



DFS with IPSS did not follow the agency standard system
development life cycle process. According to the manager, this
employee has since retired from NRC and a replacement was not
assigned to assist DFS further.

DFS managers recognized that IPSS was deployed prematurely
and that more problems should have been resolved before making
the transition from the old systems to the new. At that time a
decision was made to utilize a partially completed system as the
prior personnel security system was failing and data was corrupt.
One manager said the decision to deploy the system in 2003 was
made by two managers who no longer work in DFS and who were
focused on staying close to the implementation deadline.

Impact on Security Program

Due to the problems with IPSS, the system does not provide the
desired assurance that NRC is in compliance with security
clearance and access reinvestigation requirements. In addition,
DFS cannot provide effective oversight over the security program,
the office is forced to maintain security systems that IPSS was
intended to replace, and users are confused by incorrect data
records. Furthermore, the cost and time required to develop IPSS
continues to escalate beyond initial expectations; current
predictions anticipate the system will be completed by December
2006.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Assign an Office of Information Systems project manager to
   work closely with DFS for the remainder of the IPSS
   development process.

2. Correct the reinvestigations notifications report so that all
   overdue cases are identified and submitted for reinvestigation.




                          7
                                    Audit of NRC’s Integrated Personnel Security System




B. DATA INACCURATE AND MISSING

        Key information within the IPSS system is inaccurate, missing, or
        incorrectly displayed. Of 262 files analyzed by OIG, 119 files
        contained one or more data errors. These errors occurred because
        DFS management did not provide users with adequate guidance
        and have implemented inadequate quality control procedures.
        Without accurate IPSS data, DFS cannot ensure that
        reinvestigations are performed in a timely manner, as required.

        Required Controls

        In accordance with Federal requirements, Government managers
        must implement effective management controls over their
        programs. Office of Management and Budget Circular No. A-123,
        “Management’s Responsibility for Internal Control,” states that
        effective internal control provides reasonable assurance that
        effective and efficient operations are being achieved. NRC
        Management Directive 4.4, “Management Controls,” states that
        management controls should reasonably ensure programs achieve
        their intended results and that reliable and timely information is
        obtained, maintained, reported, and used for decisionmaking.

        The NRC reinvestigation program is designed to ensure that NRC
        employees and contractors receive the necessary background
        investigations to support their continued eligibility for security
        clearances and access assignments. Management Directive 12.3,
        “NRC Personnel Security Program,” establishes that DFS will
        initiate a reinvestigation every 5 years for Q and L(H) (high public
        trust) clearances and every 10 years for L clearances and IT
        access. According to a DFS manager, the 5 or 10 year period
        begins when the most current investigation was closed by OPM,
        provided that the investigation allowed the issuance or continuation
        of a security clearance.

        Information Is Inaccurate, Missing, and Incorrectly Displayed

        Despite DFS reliance on IPSS, key information within the system is
        inaccurate, missing, or incorrectly displayed. Specifically,

                     Information used to track reinvestigations is
                      inaccurate or missing.

                     Other information within IPSS contains errors.

                     Data concerning clearance status is incorrectly
                      displayed.
                                  8
                                                         Audit of NRC’s Integrated Personnel Security System




                           Reinvestigation Data Inaccurate or Missing

                  While IPSS is a tool for ensuring that reinvestigation requirements
                  are met, key information within the system is inaccurate and/or
                  missing. DFS staff rely on IPSS to track employees and
                  contractors who need reinvestigations. Each day, IPSS generates
                  and updates a Notifications Page that lists individuals coming due
                  for a reinvestigation; this information is pulled by a program which
                  relates to a field within IPSS called “date of investigation.” This
                  date of investigation field contains the date the last investigation
                  was closed by OPM. An OIG analysis of this field found that 105
                  out of 262 files5 randomly selected for review contained an error in
                  this field. Of the 105 files with errors, 50 files were missing a date
                  in the field. The other 55 files had an error in the date reflected in
                  IPSS. The following figure illustrates this breakdown.


                                           Date of Investigation Analysis
                                     Date Incorrect                          Date Missing
                                         21%                                     19%




                                                                                  Date Correct
                                                                                      60%



                  In some cases, the data inaccuracies were due to different choices
                  made by staff on which date to enter. For example, during a short
                  period of time around 1997, reinvestigations were conducted for L
                  clearances without sending paperwork to OPM. This
                  reinvestigation, called a file and fingerprint check, consisted of
                  running checks on fingerprints and searching law enforcement
                  databases for any negative information. The adjudicator would
                  then adjudicate the case based on this information and grant a
                  continued clearance if the outcome was acceptable. When IPSS
                  was implemented, DFS managers determined that for individuals

5
  OIG reviewed 262 personnel security files located within the DFS vault. Auditors randomly pulled active
employee and contractor files and compared the information within the paper file to the information within
IPSS.
                                                     9
                              Audit of NRC’s Integrated Personnel Security System




whose last reinvestigation was a file and fingerprint check, the date
of investigation within IPSS should reflect the date the adjudicator
signed the paperwork. Of the 262 files OIG reviewed, 15 had file
and fingerprint checks as the last reinvestigation. Of the 15 file and
fingerprint checks, 10 contained errors in the dates. In 7 of these
10 errors DFS staff entered the previous OPM investigation closed
date as the date of investigation within IPSS.

At DFS’ request, OIG provided DFS with each of the error
examples listed above. According to a DFS manager, each
example was subsequently reviewed and corrections were made to
IPSS and the paper files as appropriate.

       Other Data Errors

In addition to errors in the date of investigation, there were other
data errors within IPSS. These occurred with social security
numbers, names, and clearance type. Of the 262 files OIG
reviewed, 5 individuals had 2 IPSS files; one with the correct social
security number and one with an error in the number that cannot be
deleted from the system (see Finding A for more information on this
issue). In addition, 11 files contained errors in either the first or last
name, 3 files had errors in both the first and last name, and 5 files
contained inconsistencies in the clearance or access level.

       Clearance Data Incorrectly Displayed

Data concerning clearance status is incorrectly displayed in IPSS.
IPSS uses a split screen to track an individual’s clearance history.
The left side tracks access (e.g., temporary access, IT access,
building access) and the right side tracks clearances (Q, L(H), or L).
OIG’s review of IPSS data found that in every instance where an
employee or contractor has been issued a clearance, information
relative to status (e.g., active, terminated, pending) was entered on
the access portion of the split screen. Processors explained that
this occurs because within IPSS there are mandatory fields that
must be entered before the new record will be accepted by the
system. Subsequently, information appears on both the access
and clearance sides of the screen when it should appear only on
the clearance side.

Oversight Is Inadequate

Key information within IPSS contains errors because DFS
management did not provide users with adequate guidance and
users have created workarounds. In addition, quality control
procedures are not adequate.
                            10
                            Audit of NRC’s Integrated Personnel Security System




       Inadequate Guidance

Errors within IPSS occurred because DFS lacks written guidance
and effective quality control over the system. DFS has not provided
users with useful written guidance. Of 22 IPSS users interviewed
by OIG, 14 said they never received written guidance. Four
individuals interviewed said that when IPSS was first implemented,
they received a user guide that the contractor created. This user
guide was not updated as changes were made to the system and
therefore it is not applicable for how the system is currently used.

In addition, the processors, who are responsible for entering most
of the information in IPSS, do not receive formal written notification
of policy changes on how to enter information within the system.
Instead, a DFS manager meets with the processors to convey
changes verbally. Sometimes the DFS manager follows up with an
e-mail confirming the guidance.

       User Workarounds

Clearance information in IPSS is incorrectly displayed because of a
design flaw within IPSS that requires the completion of the access
date regardless of whether the record is for someone with a
clearance or access. Due to this design flaw, DFS processors have
created workarounds (enter clearance information in the access
fields as well as the clearance fields) to allow them to enter records
in the system.

       Inadequate Quality Control Measures

Another reason for IPSS data errors is that DFS’ quality control
measures are ineffective. DFS currently has a quality control
procedure that includes two separate checks of system data. The
first check is performed by the processors when an individual
submits his or her paperwork to DFS to process for reinvestigation;
at this point, the processors are responsible for checking the data
within IPSS, including name, date of birth, and last investigation.
The adjudicator performs the second check upon receipt of an
investigation to adjudicate; they check the same information that
the processor reviewed. Given the extent of data problems within
IPSS, it is apparent that these measures are ineffective in ensuring
the correct information is within the database.




                          11
                             Audit of NRC’s Integrated Personnel Security System




Impact on Clearance Process

Missing and inaccurate data within IPSS can lead to
reinvestigations not being performed in a timely manner. If the date
of investigation is incorrect, IPSS begins the reinvestigation
countdown at the incorrect date. In addition, when there is no date
of investigation for an individual within IPSS, the Notifications Page
will never identify this individual as coming due for a reinvestigation.

Having inappropriate required fields within IPSS caused additional
information to be added to the system. This additional information
can be incorrect or misleading to system users. For example,
some users appear to be terminated when they have an active
clearance because of the required entries in the access section.
This could cause confusion for the security guards if the employee
needs a temporary badge.

Recommendations

OIG recommends that the Executive Director for Operations:

3.   Develop and implement a consolidated data entry guide for
     IPSS users and update it every 6 months or as needed.

4.   Review and correct the most recent reinvestigation dates
     within IPSS.

5.   Change IPSS to eliminate the requirement to duplicate
     clearance data within the system.

6.   Eliminate data that was purposely duplicated as a workaround
     in IPSS records for individuals with a clearance.

7.   Perform top-to-bottom cleanup effort of every active file;
     support this effort with clear written guidance as to what data
     goes in what field.

8.   Develop and implement an overall quality control approach to
     ensure continued data accuracy.




                           12
                                                      Audit of NRC’s Integrated Personnel Security System




    C. IPSS CHECKS ARE INADEQUATE

                 IPSS lacks required system checks to assure correspondence
                 between (1) badge type and clearance type and (2) clearance type
                 and investigation type. The system also lacks logical date checks
                 to ensure data accuracy. These issues exist because problems
                 with system checks were not identified during user acceptance
                 testing and because too few checks were included in system
                 requirements documents. This lack of checks could result in the
                 disclosure of classified information to those unauthorized for such
                 access; it has already resulted in the issuance of incorrect badges
                 to two NRC employees and in IPSS data errors.

                 Necessary System Checks

                 Computer systems cannot effectively support business operations
                 unless they include sufficient checks to (1) highlight illogical actions
                 to prevent misapplication of the business operation’s rules and (2)
                 ensure that key data they process is accurate and reliable. To this
                 end, the IPSS project plan stated that IPSS would:

                 •    Ensure a correlation is made between clearance/access type
                      and type of badge issued so that no one could be assigned a
                      badge that was inappropriate to their clearance or access.

                 •    Make appropriate notification if the investigation on record is
                      insufficient for the clearance requested or issued.

                 System Checks Are Missing

                 IPSS is missing fundamental system checks to facilitate the correct
                 application of DFS policies and to ensure data accuracy. Auditors
                 tested both the production and test versions6 of IPSS for these
                 checks and balances and found that neither version:

                 •    Prevented the assignment of an inappropriate badge type.

                 •    Ensured a correlation between investigation and clearance type.

                 •    Prevented the entry of illogical dates.




6
  The production version of IPSS is the version that DFS is now using to support its daily operations. The
test version is the version the contractor has improved, based on required enhancements, but which has not
been implemented for use on a daily basis.
                                                   13
                                                 Audit of NRC’s Integrated Personnel Security System




                Specifically, system tests conducted by OIG allowed the
                authorization of a Q-clearance badge to employees without Q-
                clearance status, allowed the authorization of an L-clearance badge
                to employees without L-clearance status, and allowed the
                authorization of clearances and badges to employees when there
                was no corresponding investigation information entered in the
                system.7

                Furthermore, an analysis of 262 IPSS records revealed at least 8
                examples of illogical date entries that, if flagged to users, could
                have prompted correction of the dates, in turn, which would
                increase the accuracy of IPSS data. These were cases where the
                predictable chronological sequence of (a) sending a request for
                investigation to OPM, (b) OPM’s closure date for the investigation
                (which, as noted previously, NRC uses to begin the countdown to
                the next reinvestigation), and (c) the date NRC receives the case
                back from OPM was obviously not reflected by the dates in IPSS.
                In these cases, the date that NRC received the closed case from
                OPM preceded the date the case was closed.

                User Testing Was Inadequate

                IPSS does not include basic system checks to prevent issuance of
                wrong badges or assignment of inappropriate clearances because
                user acceptance testing was inadequate to uncover the problems.
                Date logic checks were not included in the IPSS contract or project
                plan and consequently the contractor was not required to build
                them into the system.

                According to DFS staff who were involved in testing IPSS prior to
                acceptance, they were not provided with formal instructions on how
                to test the system and they did not apply a methodical approach to
                see whether project plan requirements were included in the final
                system. DFS staff said they tested the system by taking actions
                they thought they would take as system users. A DFS manager
                provided us with one PEC document, dated April 2004 (6 months
                after DFS deployed IPSS), which contained general testing
                suggestions but was not intended to test the full capabilities and
                functions of IPSS.

                DFS managers could not explain why date checks were not
                included in the system; one manager recalled discussions that such
                checks would be included, but did not know why they were not
                issued as system requirements.

7
 OIG conducted tests of the built-in system controls. Although the system allowed auditors to
authorize inappropriate badge assignments, none were actually issued as a result of the test.
                                              14
                            Audit of NRC’s Integrated Personnel Security System




Risks Posed By Missing Checks

Because IPSS lacks system checks to ensure that badges issued
correspond to clearance type and that clearance type corresponds
to investigation type, it is possible that an employee or contractor
will be given inappropriate access to classified information.
Furthermore, two regional employees who had not received their
security clearances were mistakenly issued badges indicating they
had L clearances. These occurrences were identified by the
region’s security officer and resolved before either individual came
into contact with classified information. Finally, system checks
would have prevented errors in OPM investigative case closing
dates in cases where the case closed date entered in IPSS
preceded the entry for the date the case was sent to OPM.

Recommendations

OIG recommends that the Executive Director for Operations:

9.   Fix the planned controls to prevent incorrect badge issuance
     and incorrect clearance assignment.

10. Add date logic controls to ensure that OPM investigation dates
    follow in logical chronological order.




                          15
                                                      Audit of NRC’s Integrated Personnel Security System




    D. SYSTEM SECURITY MEASURES INADEQUATE OR MISSING

                 IPSS does not follow several important security practices outlined
                 in its security plan, including assigning users with the least amount
                 of access needed to perform their job, having the capability to
                 identify when and how the system is used, and having users sign
                 an integrity statement. IPSS security measures are inadequate
                 because DFS managers performed ineffective oversight of system
                 role assignments and were unaware of the risks posed by a lack of
                 audit trails and an integrity statement. As a result of these
                 shortcomings, personnel security information is vulnerable to
                 misuse, both intentional and unintentional.

                 System Security Requirements

                 The IPSS security plan8 acknowledges that individuals authorized
                 to have access to information systems potentially impose the
                 greatest harm to those systems, both accidentally and intentionally.
                 The IPSS security plan lists various security controls to prevent and
                 detect harm to the system. These controls include least privilege
                 and audit trails. Least privilege is the practice of restricting a user’s
                 access to data files and the levels of access (e.g., viewable and
                 editable) to the minimum amount necessary to perform his or her
                 job. According to the security plan, audit trails are used to monitor
                 IPSS user activity. Audit trails are a record showing who has
                 accessed the system and what operations he or she has performed
                 during a given period of time. The security plan states that these
                 mechanisms need to be implemented in order to improve the
                 security of the system and the system data.

                 In addition, the system security plan contains an integrity statement
                 that provides guidelines for users on when and how to use IPSS.
                 The security plan suggests that each user should sign this
                 document to ensure that they know and understand their
                 responsibilities.

                 Several Security Practices Are Not Followed

                 IPSS does not follow several important security practices outlined
                 in its security plan. Specifically,




8
 The Computer Security Act requires all Federal agencies to develop and implement a plan for the security
and privacy of computer systems that contain sensitive information. In addition, the Act requires Federal
agencies to review and update these plans every 3 years.
                                                   16
                             Audit of NRC’s Integrated Personnel Security System




•   Least privilege is not followed in that some users are allowed
    too much access to the data, and other users have been
    inappropriately assigned the wrong access type.

•   IPSS does not contain audit trails.

•   Users do not sign an integrity statement on appropriate use of
    the system.

       Least Privilege Not Followed

The least privilege principle was not followed for IPSS in that some
roles allow too much access and others have been inappropriately
assigned.

IPSS allows users to have different levels of access to the system
based on the user being assigned one or multiple roles. These
roles determine what screens the user can view and, within a
screen, what fields are viewable and/or editable. As of June 24,
2005, IPSS had 12 roles that could be assigned to users. Through
these 12 roles, a total of 185 fields are viewable or editable. The
role with the most access to the system, security manager, allows
users to edit 154 fields and view all of the 185 fields within the
system. The role with the least access, clearance viewer, allows
the user to view six fields, while the other roles allow varying levels
of access between these two extremes. These roles were
designed through a collaborative effort involving DFS managers
and the system contractor, and the roles designed are detailed
within the system security plan.

OIG’s analysis of roles and their associated screens and fields
showed that some fields allowed too many roles to access the
information. According to the security plan and DFS managers,
only the guards, facility security personnel, and Security Branch
Chief need access to badge information, however IPSS allows the
drug manager and drug tester roles to view and edit this
information.

In addition, IPSS users were assigned roles inappropriately based
on their job functions. A security guard, who is responsible for
issuing temporary badges to employees and visitors, had the
highest level of access to IPSS. This level of access was designed
for the DFS managers and only two other users have this access;
they are both DFS managers. Furthermore, the role designated for
senior adjudicators has been inconsistently applied to those who
have that job responsibility. One senior adjudicator has the
appropriate role, while another senior adjudicator has only the basic
                           17
                            Audit of NRC’s Integrated Personnel Security System




adjudicator role. In addition, there is a role in IPSS designed to
allow users only to view clearances, yet this role has not been
assigned to anyone. Furthermore, although the drug testing
module is not currently functional, two IPSS users have been
inappropriately assigned the drug tester and drug manager role.
One facility staff member has been assigned both the drug tester
and drug manager role and a processor has been assigned the
drug tester role.

       No Audit Trails

IPSS does not contain functional audit trails and the system lacks
the ability to allow managers to track user activity and identify
misuse of the system. Although audit trails were required for
inclusion in IPSS, DFS opted not to pursue this security measure.
Managers recalled that the contractor expressed that adding audit
trails would be difficult and very costly. Although IPSS contains
some database level audit trails, this function is not used because it
slows down the system to an unworkable level.

       Integrity Statement Not Used

The lack of audit trails is compounded by the fact that users are not
required to sign an integrity statement acknowledging appropriate
use of the system.

Oversight Is Ineffective

IPSS security measures are inadequate because DFS managers
performed ineffective oversight of role implementation and
assignment. In addition, managers are unaware of the risks posed
by a lack of audit trails and failure to use an integrity statement.

IPSS roles allow users to have too much access to the system
because quality review procedures have been inadequate. After
the contractor delivered the designed roles, the IPSS administrator
reviewed the roles to ensure that the access was correct. In
addition, when new fields are added to IPSS the system
administrator is responsible for establishing what roles should be
allowed access. These procedures were not successful to ensure
the roles had the appropriate access. Furthermore, DFS managers
do not perform periodic reviews on the role assignments to ensure
that users have the appropriate roles.




                           18
                            Audit of NRC’s Integrated Personnel Security System




IPSS lacks an audit trail capability because DFS managers were
unaware of the risk to the system without this technical security
measure. The system contractor stated that creating audit trails
would be a complicated process and DFS managers made the
decision not to pursue creating audit trails within the system. DFS
managers made this decision based on the projected cost to
develop audit trails and because their office is small and they felt
that the potential for harm to the system is minimal. DFS managers
were unaware of the need for an integrity statement, although it is
mentioned within the security plan.

Personnel Security Information Is At Risk

Personnel security information is at risk because appropriate
security measures over access to the system and its data are not in
place to prevent misuse. Some users have too much access to
IPSS information, which increases the risk to the quality of the IPSS
data. The risk to the data is compounded because there are no
measures in place to ensure users are using the system
appropriately.

 Recommendations

OIG recommends that the Executive Director for Operations:

 11. Redefine IPSS user roles in accordance with least privilege
     requirements.

 12. Review role assignments annually and make appropriate
     adjustments.

 13. Add audit trail capabilities to IPSS.

 14. Review audit trail reports monthly to ensure appropriate use
     of IPSS.

 15. Require future IPSS users to sign an integrity statement
     before being granted access to the system. Also require
     existing users to sign an integrity statement.




                          19
                                     Audit of NRC’s Integrated Personnel Security System




E. IPSS LACKS RECORDS DISPOSITION SCHEDULE

        IPSS lacks a records disposition schedule because OIS failed to
        inform DFS of this need during the system development process.
        As a result, the system is not in compliance with Federal records
        retention requirements.

        Records Disposition Requirements

        All Federal records require a records disposition schedule which
        defines the actions that must be taken when the records are no
        longer needed for Government business. All disposition schedules
        must be approved by the National Archives and Records
        Administration (NARA). Personnel security clearance records are
        covered by NARA General Records Schedule 18-22a, which states
        that the paper files need to be destroyed when an employee or
        contractor dies or not more than 5 years after the employee
        separates from an agency or the contract relationship expires.

        Electronic records are covered by General Records Schedule 20-
        3a, which states that electronic versions of records scheduled for
        disposal under the personnel security requirements are to be
        deleted after the expiration of the authorized retention period for the
        paper records, or when no longer needed, whichever is later.

        No IPSS Records Disposition Schedule

        DFS lacks a records disposition schedule for IPSS. A DFS
        manager explained that even though the paper records must be
        destroyed, it is useful to retain electronic records because there are
        occasions when employees or contractors return to NRC after 5
        years and it is useful to have a historical record when adjudicating
        these individuals for clearance or access. The manager was
        unaware that a records disposition schedule was needed.

        When asked to elaborate on what DFS needs to do to ensure
        compliance with Federal records retention requirements, an OIS
        records manager explained that DFS must develop a schedule and
        process for IPSS records disposition that is worked into its
        operating procedures and into an IPSS user guide.

        DFS Was Unaware of Requirement

        IPSS lacks a records disposition schedule and associated
        implementation plans because OIS failed to inform DFS of this
        need during the system development process. According to an OIS
        manager, the need for a records disposition schedule would
                                 20
                            Audit of NRC’s Integrated Personnel Security System




typically be identified when an office first approaches OIS to begin
planning for a system. The manager said there are measures
currently in place to ensure that these steps occur.

NRC Is Noncompliant With Records Requirement

Without an IPSS records disposition schedule and a process to
ensure it is followed, NRC is not in compliance with Federal records
retention requirements.

Recommendations

OIG recommends that the Executive Director for Operations:

 16. Develop a records disposition schedule for IPSS and
     incorporate it into DFS procedures and the IPSS users
     manual.




                          21
                                    Audit of NRC’s Integrated Personnel Security System




F. SIGNIFICANT ISSUES REMAIN

         It has been more than 2 years since IPSS was deployed by DFS for
         routine use in support of the agency’s security programs, yet
         significant problems remain. These problems pertain to the
         system’s lack of functionality, inaccuracies in system data, missing
         system checks, and ineffective security measures, which, taken
         together, jeopardize the agency’s ability to efficiently manage its
         personnel and facility security programs.

         The contract to develop IPSS is now in its seventh modification and
         DFS managers anticipate that up to $90,000 more will be needed to
         finish developing the system by a new target date of December
         2006. Given the previous complications in fulfilling the system
         design requirements, there is no assurance that the system will
         perform satisfactorily even 1 year from now.

         OIG recommends that the Executive Director for Operations:

          17. Conduct a cost-benefit analysis to determine whether the
              agency should continue to develop IPSS versus replacing
              the system. As part of the cost-benefit analysis consider
              current Federal personnel security requirements.




                                   22
                                      Audit of NRC’s Integrated Personnel Security System




IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        1. Assign an Office of Information Systems project manager to
           work closely with DFS for the remainder of the IPSS
           development process.

        2. Correct the reinvestigations notifications report so that all
           overdue cases are identified and submitted for reinvestigation.

        3. Develop and implement a consolidated data entry guide for
           IPSS users and update it every 6 months or as needed.

        4. Review and correct the most recent reinvestigation dates within
           IPSS.

        5. Change IPSS to eliminate the requirement to duplicate
           clearance data within the system.

        6. Eliminate data that was purposely duplicated as a workaround
           in IPSS records for individuals with a clearance.

        7. Perform top-to-bottom cleanup effort of every active file; support
           this effort with clear written guidance as to what data goes in
           what field.

        8. Develop and implement an overall quality control approach to
           ensure continued data accuracy.

        9. Fix the planned controls to prevent incorrect badge issuance
           and incorrect clearance assignment.

        10. Add date logic controls to ensure that OPM investigation dates
            follow in logical chronological order.

        11. Redefine IPSS user roles in accordance with least privilege
            requirements.

        12. Review role assignments annually and make appropriate
            adjustments.

        13. Add audit trail capabilities to IPSS.

        14. Review audit trail reports monthly to ensure appropriate use of
            IPSS.



                                   23
                           Audit of NRC’s Integrated Personnel Security System




15. Require future IPSS users to sign an integrity statement before
    being granted access to the system. Also require existing users
    to sign an integrity statement.

16. Develop a records disposition schedule for IPSS and
    incorporate it into DFS procedures and the IPSS users manual.

17. Conduct a cost-benefit analysis to determine whether the
    agency should continue to develop IPSS versus replacing the
    system. As part of the cost-benefit analysis consider current
    Federal personnel security requirements.




                         24
                                  Audit of NRC’s Integrated Personnel Security System



V. AGENCY COMMENTS

       At an exit conference held on December 22, 2005, NRC officials
       generally agreed with the report’s findings and recommendations
       and provided comments concerning the report. In addition, they
       stated that they were aware of problems with IPSS prior to
       receiving the draft report. We modified the report as we determined
       appropriate. NRC reviewed these modifications and opted not to
       submit formal written comments to this final version of the report.




                                25
                Audit of NRC’s Integrated Personnel Security System




[Page intentionally left blank.]




              26
                                   Audit of NRC’s Integrated Personnel Security System


                                                                          Appendix A
SCOPE AND METHODOLOGY

       Auditors reviewed IPSS to determine if the system meets its
       required operational capabilities.

       The OIG audit team reviewed relevant criteria, including
       Management Directive 12.3, “NRC Personnel Security Program”;
       OMB Circular No. A-123, “Management’s Responsibility for Internal
       Control”; OMB Circular No. A-130, “Management of Federal
       Information Resources”; NUREG-0910, “NRC Comprehensive
       Records Disposition Schedule”; and NARA’s “General Records
       Schedule.” The audit team also reviewed system documentation,
       including the IPSS contract, security plan, project plan, training
       plan, data conversion plan, contingency plan, and users guide.

       Auditors interviewed DFS and other Office of Administration staff
       responsible for the system to understand the development and
       management of the system. Auditors interviewed IPSS users,
       including adjudicators, facility security staff, processors, and
       security guards to determine user satisfaction with the system.
       Auditors also interviewed OIS staff to learn about support OIS
       should provide to IT system development projects and about
       agency records retention policy.

       Auditors compared information from the paper personnel security
       records to the corresponding data within IPSS to assess the
       accuracy of IPSS information and whether the system was
       capturing individuals due for reinvestigation. Auditors reviewed a
       total of 262 personnel security files for both NRC employees and
       contractors. Auditors also conducted tests of the live and
       production versions of IPSS to assess system data controls.

       This work was conducted from May 2005 through October 2005, in
       accordance with generally accepted Government auditing
       standards and included a review of management controls related to
       audit objectives. The work was conducted by Beth Serepca, Team
       Leader; Judy Gordon, Audit Manager; Rebecca Underhill,
       Management Analyst; and Christopher Lange, Summer Intern.




                                 27
                Audit of NRC’s Integrated Personnel Security System




[Page intentionally left blank.]




              28
                                                                                                                   Audit of NRC’s Integrated Personnel Security System


                                                                                                                                                                                                              Appendix B
DETAILED IPSS DESCRIPTION

      The following chart, which appears in the contractor’s IPSS design
      review document, illustrates how IPSS was intended to be used within
      NRC.


                                                                                                                                                                                      Co
                            es
                        let                                                           Re
                                                                                                                                                                                          m
                                                                                                                                                                                      S e p le
                      mp urit y                                                          v                                        ws                                                           t
                    o
                   C e  c      s           Forms                                      Fo iews                                  vie s                                    Forms        Fo cur it es
                      S o rm                                                            rm                                   Re orm                                                     rm y
                        F                                                                  s                                   F                                                          s

                                                      Requ
                                                           e   st Mo                                                                                       o        re Info
                                                                       re In                                                                        es t M
                                                                               fo                                                              Requ
       Clearance                                                                                                                                                            r ms                     Classified
                                                                                                                                                              mit       s Fo
       Applicant                                                                                                                                         S ub                                         Visitor
                                       Prov id
                                              e More                                                                                                                           fo
                                                     Info                                                                                                                ore In
                Submits                                                                                                                                             ide M
                                                                                                                                                                Prov
                 Forms
                                                                                                                                 Requ est Ch
                                                                                                                            Provide Ch            ecks
                                                                s                                                                          ecks Resu                                               NCIC,
                                                            o rm                                                                                         lts
                                                       ds F                                 Processor/Adjudicator                                                                               Credit, PIPS,
                                                    war                                                                       R
                                                Fo r                                                                     P ro equ es                                                            DCII Checks
                                                                                                                             vid       t In v
                                                                                                                                e In          estig
                                                                                                                                     ves            atio
                                                                                                       Enter Applicant/                  t ig a          n
                                                                                                                                               tion
                                                                                            Various    Visitor Information                          Re
                                                                                                                                                       s ul                                             OPM
                                                                                       Notifications                                                        ts
         Human Resources                                                                                                                                                                            Investigation
                                                                                                                      Enter Checks/
                                                                                                                      Investigation Information
                       Drug Test
      Drug
                       Candidate Pool
      Test
                                                                                                                                                                           tion
                                                                                                                                                          al Notifica
                                                                                                                                        Interim/F in
                                                    tification                                                                                                      oval
                                    Drug Te st No                                                                                                      /F inal Appr
                                                         sults                                                                             Interim
                                        Drug Te st Re                                                                                                                                           Adjudication
                                      es t Ra ndom Dr ug                                                                                                                                        Management
                                 Requ              tes
                                   Te st Cand idaRandom
                                                            Dr ug Test                                             IPSS                            P ers
                                                                                                                          In




                                                                 Li st                                                                                     o n Im
                                                      andi dates
                                                                                                                             t




                                                                                                                                                                 a ge
                                                                                                                           er




             Drug Testing Office                  C
                                                                                                                             im
                                                                                                    on n




                                                                                                                               /P
                                                                                                No tion

                                                                                                             tio




                                                                                                                                  er
                                                                                                                                   Ba
                                                                                                         ica
                                                                                                        ca




                                                                                                                                     m
                                                                                                                                      dg

                                                                                                                                      an
                                                                                                    t if
                                                                                                    ifi
                                                                                                 ot



                                                                                                a ti




                                                                                                                                        en
                                                                                                                                         eI
                                                                                              rN



                                                                                           orm




                                                                                                                                          tB
                                                                                              n




                                                                                                                                           nfo
                                                                                            to

                                                                                           so




                                                                                                                                                                                   NRC File Server
                                                                     si




                                                                                                                                             ad
                                                                                       In f
                                                                                         r




                                                                                                                                               rm
                                                                   Vi




                                                                                                                                                                                                         Pe
                                                                                Pe




                                                                                                                                                ge




                                                                                                                                                                                                            r
                                                                  ed




                                                                                                                                                 at i




                                                                                                                                                                                                        Im so n
                                                                                    ge
                                                                             d




                                                                                                                                                   No
                                                               ifi


                                                                          te




                                                                                                                                                     on




                                                                                                                                                                                                          ag
                                                                                 ad
                                                            ss


                                                                          a




                                                                                                                                                                                                              e
                                                                                                                                                      tifi
                                                                       in
                                                          la




                                                                                                                                                        &
                                                                               yB




                                                                                                                                                           ca
                                                                    rm
                                                         C




                                                                                                                                                            Im



                                                                                                                                                             t io
                                                                            rar
                                                                 Te




                                                                                                                                                                 ag



                                                                                                                                                                  n
                                                                         po




                                                                                                                                                                    e
                                                                                m
                                                                             Te




                                                                                                                                                                                                  ge
                                                                                                                                                                                              Ima
                                                                                                                                                                                        son
                                                                                                                                                                                     Per                 PICS/ACCESS

                                                                                                                                                 t
                                                                                                                                               en
                                                      Guard Post                                                                             an            Badge Station
                                                                                 Te B a




                                                                                                                                            m
                                                                                                                                         er
                               e y




                                                                                   m dg
                            dg rar




                                                                                                                                       /P dge
                                                                                    po e
                          Ba po




                                                                                                                                    rim a
                                                                                       ra
                             m




                                                                                                                                  te B
                                                                                          ry
                          Te




                                                                  G                                                          In
                                                  y                ra
                                            i li t                    n
                                          ac                      Ac t F a
                                      nt F ess                       ce ci
                                    ra c                                ss lity
                                   G Ac


             Classified                                                                                       Clearance
              Visitor                                                                                         Applicant




      The IPSS Overall Project Plan, dated February 2003, described the
      following objectives for IPSS:

      The objective of this project is to develop an efficient, accurate, and
      reliable system that meets its functional requirements and replaces the
      current personnel security software. The IPSS will

                                                                                                           29
                                     Audit of NRC’s Integrated Personnel Security System



•   track all personnel security processing activities related to the
    approval or denial of an employment clearance and access
    authorization;

•   track unescorted contractor access to NRC facilities;

•   track due process procedures (denial, revocation, suspension and
    termination of employment clearance or access authorization);

•   provide reporting capabilities;

•   track outgoing visits of NRC employees;

•   provide a “tickler” system to alert staff when follow-up action is
    required;

•   provide data input along with the images of staff to serve as a
    badging verification system;

•   provide for data consistency, confidentiality, integrity and
    authentication;

•   promote efficient data sharing by consolidating personnel security
    activities into one integrated system;

•   track drug testing activities;

•   provide random selection and tracking of drug program participants;

•   provide multiple drug testing reports;

•   generate standard memos approving or denying access letter
    authorizations;

•   generate email capability to notify facility security staff of access
    authorizations; and

•   provide Ad Hoc reporting capabilities.

IPSS will promote more efficient data sharing by consolidating
personnel security activities into one integrated system.




                                30
